<html>
<title> - EXPLORING FEDERAL SOLUTIONS TO THE STATE AND LOCAL FUGITIVE CRISIS</title>
<body><pre>[Senate Hearing 111-579]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-579

   EXPLORING FEDERAL SOLUTIONS TO THE STATE AND LOCAL FUGITIVE CRISIS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 19, 2010

                               __________

                          Serial No. J-111-70

                               __________

         Printed for the use of the Committee on the Judiciary


                  U.S. GOVERNMENT PRINTING OFFICE
57-940 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hannibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel











                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois, prepared statement...................................    38
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Bartlett, Dennis A., Executive Director, American Bail Coalition, 
  Fairfax, Virginia..............................................    18
Gaillard, Marc, Second Deputy to the Clerk of Quarter Sessions, 
  Philadelphia, Pennsylvania.....................................    11
Patrignani, John, Acting Marshal for the Eastern District of 
  Pennsylvania, Philadelphia, Pennsylvania.......................    14
Preski, David, Chief of the Pre-Trial Service Division, First 
  Judicial District of Pennsylvania, Philadelphia, Pennsylvania..    16
Weise, Roy G., Senior Advisor, Criminal Justice Information 
  Services, Federal Bureau of Investigation, Clarksburg, West 
  Virginia.......................................................    17
Williams, Seth, District Attorney, Philadelphia, Pennsylvania....     2

                       SUBMISSIONS FOR THE RECORD

Bartlett, Dennis A., Executive Director, American Bail Coalition, 
  Fairfax, Virginia, statement...................................    27
Gaillard, Marc, Second Deputy to the Clerk of Quarter Sessions, 
  Philadelphia, Pennsylvania, statement..........................    39
Patrignani, John, Acting Marshal for the Eastern District of 
  Pennsylvania, Philadelphia, Pennsylvania, statement............    41
Preski, David, Chief of the Pre-Trial Service Division, First 
  Judicial District of Pennsylvania, Philadelphia, Pennsylvania, 
  statement......................................................    50
Weise, Roy G., Senior Advisor, Criminal Justice Information 
  Services, Federal Bureau of Investigation, Clarksburg, West 
  Virginia, statement............................................    51
Williams, Seth, District Attorney, Philadelphia, Pennsylvania, 
  statement......................................................    54

 
   EXPLORING FEDERAL SOLUTIONS TO THE STATE AND LOCAL FUGITIVE CRISIS

                              ----------                              


                       TUESDAY, JANUARY 19, 2010

                               U.S. Senate,
                        Committee on the Judiciary,
                           Subcommittee on Crime and Drugs,
                                                     Washington, DC
    The Subcommittee met, pursuant to notice, at 9:35 a.m., 
Constitution Center, Philadelphia, Pennsylvania, Hon. Arlen 
Specter presiding.
    Present: Seth Williams, District Attorney; John Patrignani, 
Acting U.S. Marshal for the Eastern District of Pennsylvania; 
Marc Gaillard; Office of the Clerk of Quarter Sessions; Roy G. 
Weise, Senior Advisor, Criminal Justice Information Services; 
David Preski, Chief of the Pre-Trial Service Division at the 
First Judicial District of Pennsylvania; and Dennis A. 
Bartlett, Executive Director, The American Bail Coalition.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Specter. In early 2008, the St. Louis Post Dispatch 
published a series of articles, but here you have something 
that is far beyond Philadelphia. These fugitives move in 
interstate commerce, so that it really is a Federal problem. We 
find a lack of funding on the recordkeeping or on the entries 
of these fugitives to pose an enormous problem.
    This is a matter where I think the Federal Government ought 
to play a significant role. Then-Senator Biden thought so, 
Senator Durbin thought so, in introducing legislation, but it 
hasn't progressed, with so many other things on the Senate and 
Congressional docket. But we see, with more than a million 
fugitives at large and the criminal justice system breaking 
down, that the efforts that Senator Biden made to have Federal 
funding and Federal grants ought to be carried forward, and 
that is something that we're going to take a look at when we 
get into the specifics on this issue.
    We have a distinguished array of witnesses today. Our lead 
witness is sitting beside me, Hon. Seth Williams. He has been 
District Attorney of Philadelphia now for just a couple of 
weeks. DA Williams brings a distinguished record to this 
position: a graduate of Penn State University, where he first 
led the Black Caucus, and then was president of the student 
body, representing some 57,000 students; got his law degree at 
Georgetown, with distinction; served in the District Attorney's 
Office for 10 years, so he knows the nuts and bolts of the 
operation from having been there; headed up a great many unique 
efforts by the District Attorney's Office and is taking over 
from another distinguished Philadelphia District Attorney, 
District Attorney Len Abraham.
    So many of these problems are really beyond the scope of 
what the DA can do and what the DA can control when you're 
talking about the interaction of witness intimidation, bench 
warrants, fugitives. But the DA, in our system, is really the 
central figure.
    As is generally known, I was District Attorney in 
Philadelphia and assisted before that, and know the problems of 
the office intimately and am very much concerned about what's 
happening in this city. It's my hometown. I live here. I'm 
proud to say I do not live in Washington. Every Monday morning 
I travel the State and get to Washington late in the afternoon 
and back on Friday. Beyond the scope of a problem for 
Philadelphia, it proliferates out into the suburbs. Surrounding 
counties are not safe. The region is not safe and it's a 
national problem. These fugitives move in interstate commerce.
    So this is a matter where I think the Federal Government 
has a very legitimate and important role, and I intend to push 
to see to it that appropriate action is taken at the Federal 
level.
    Well, welcome, Mr. District Attorney. The floor is yours.

 STATEMENT OF SETH WILLIAMS, DISTRICT ATTORNEY, PHILADELPHIA, 
                          PENNSYLVANIA

    Mr. Williams. Well, thank you. Good morning to everyone 
that's here.
    First, I'd like to thank you, Senator, for taking 
leadership on this issue and for hosting this series of 
hearings. It's of great import.
    I, like you, as a Philadelphian, was saddened at first when 
I read the series of articles in the Philadelphia Inquirer 
titled, ``Justice Delayed, Dismissed and Denied,'' and I have 
it with me. We have spoken about this several times, both 
personally and in public forums such as this.
    I, as a Philadelphian, and I know you, was saddened by the 
statistics of our broken criminal justice system. I felt 
vindicated in many ways. As a politician, I was talking about 
many of these issues for the last 5 years to anyone that would 
listen, and I'm very glad that someone found the empirical 
evidence and the data and that you, and others, are listening 
now.
    I'm very thankful and hopeful that these hearings, the 
articles in the newspaper, and also the fact that we all are in 
a fiscal crisis right now and that there is a new District 
Attorney, hopefully all of those forces acting together can 
bring us together to work to solve the problem, both from a 
Federal, a State, and a local level.
    So again, let me just thank you for your leadership. More 
important than just the bright lights and the cameras being on, 
I look forward to my staff working with your staff, working 
with the staffs of all those who are here today, to discuss how 
we can solve this problem.
    I have said many times that our criminal justice system is 
broken. You touched on the fact that the most recent hearing 
you had dealt with victim intimidation. I have to do all that I 
can as a District Attorney to ensure that the system works.
    One of the ways we can do that is by protecting our 
victims, but when defendants are fugitives and fail to appear, 
it revictimizes our victims over and over again. They don't get 
their cup of justice filled. I heard many stories about you 
talking about filling the cup of justice for everyone that came 
into the DA's office. When a defendant fails to appear, the 
victim is left wanting to know, what happens to them? What is 
ever going to happen to their case? So I'm very glad that we're 
here to talk about fugitives and the different ways that we can 
go about trying to address the problem.
    I recognize that I have 2 minutes and 27 seconds left, so 
I'll try to be as----
    Senator Specter. Let's turn off the timer.
    Mr. Williams. That's all right. I'll try to be as pointed 
as possible.
    Senator Specter. I'm in charge here: turn off the clock.
    [Laughter.]
    Mr. Williams. But I believe the primary reason we have so 
many fugitives walking our streets, is our bail system in 
Philadelphia is broken. You are correct, there are nearly 
50,000 fugitives in the city of Philadelphia. Each year, about 
1 out of 3 defendants fails to show up for at least one court 
hearing. There are barely more than 50 court officers to catch 
these fugitives. Philadelphia courts issue approximately 25,000 
bench warrants each year for criminal defendants who do not 
show up for court, and over the last 30 years fugitives owe the 
city approximately $1 billion in forfeited bail.
    There are many reasons the system is broken. Hopefully 
there can be many solutions to this broken system. But I have 
spoken quite often that if we're going to change the system, if 
we're going to address criminal behavior, it's not the severity 
of punishment that matters, it's not that we're going to give 
someone 50 to 100 years, it's the certainty of punishment that 
changes behavior. If it's criminal behavior, if it's trying to 
housebreak a pet, or if it's raising three daughters like I 
have, it's the certainty of punishment. Clearly, there is no 
certainty of punishment when nearly 1 out of 3 defendants in a 
year fails to appear and a bench warrant is issued.
    So, I believe we have to do all that we can to increase the 
certainty by increasing the effectiveness of our bail system 
and reducing the number of fugitives. So I have a list, and I 
ask that my written notes and testimony be entered into the 
Senate record.
    [The prepared statement of Mr. Williams appears as a 
submission for the record.]
    Mr. Williams. I have several bullet points I'd like to 
touch on briefly, but I believe all that it comes to, is we 
have to have a holistic approach. There's no one single magic 
bullet that we can have to change it. There are many things 
that we have to do. I know that I'm going to be pushing for us 
to have more hearings, both preliminary hearings and trials, in 
the absence of defendants that fail to appear.
    If we can show that they wilfully failed to appear, that 
they knew of the date, then we have to proceed if the victim 
shows up to proceed with that preliminary hearing, to preserve 
that testimony and to be able to move that case forward. Many 
defendants know, and make fun of, our criminal justice system. 
They thumb their noses. They know if they fail to appear, the 
victim will become frustrated and be worn out like they're on 
the Baton Death March. If we can proceed with these hearings in 
their absence, the victim will feel as though they were heard 
and we can proceed with their trial. That's one area that I 
would like to work on.
    We could effectively carry out the financial background 
checks for those who put up bail money. It's been often said 
that it's easier to get bail than it is to get a loan for a 
car, so we have to go through the proper background checks of 
the people who are putting up money so when they fail to 
appear, we can go after the 90 percent. You're very familiar 
with it in Philadelphia, that if bail is set the defendant only 
has to put up 10 percent. For many, we don't know really who 
signed up. What collateral do they have? We have to do a much 
better checking of the background of those who are putting up 
the money so that we can then see if we can go after it.
    I believe also--and you've been very helpful--in our 
programs for Safe Surrender. I believe that we have to be able 
to increase the Safe Surrender programs in Philadelphia where 
we can work with communities, the clergy, the Federal marshals, 
our own First Judicial District, warrant officers, to provide 
an opportunity for defendants who are fugitives to surrender 
themselves in an environment that they feel safe.
    Also, it's a way to protect our police officers and our 
warrant officers who are out, like Officer Joseph LeClair who 
was killed in the line of duty while he was trying to effect an 
arrest on a warrant for a fugitive. The majority of police 
officers that lose their lives in the line of duty do so when 
they're pulling over a person who is wanted as a fugitives just 
at a routine traffic stop. So, Safe Surrender programs can help 
us reduce the number of fugitives by keeping them in the 
system, allowing them to turn themselves in.
    We also have to do all that we can to better monitoring 
defendants that are out on bail. So you spoke of ways in which 
the Federal Government could help. I believe that the Federal 
Government, of course, could help us with funding for 
technologies, new technologies. The defendants have the latest 
weapons, they have the latest technologies. We have to stop 
playing catch-up and start catching them.
    By having the most recent technologies, like GPS systems, 
defendants could get bail, but also have a monitoring system so 
that if they did fail to appear we could more easily find them. 
That's a possibility also. I could go on and on and on and on 
and talk about many other theories that I have, but I really 
believe that it's going to take a holistic approach, that we in 
the District Attorney's Office have to do all that we can.
    I believe that we can use some of the most recent 
technologies, again, to change some of the theories about how 
we issue bail. Instead of just, what is the person's ability to 
pay, we can use risk analysis: what is the risk of not just 
their failing to appear, but of committing another crime while 
they're out on bail?
    By working with Professor Goldcamp and Professor Sherman 
from University of Pennsylvania, we can instill new risk 
analysis in the charging and in the bail function so that we 
can better determine who is most likely to come. About 2 
percent of the defendants are the most violent. If we can find 
better ways to monitor that 2 percent, I believe that we could 
do a lot to reduce the fact of violence on the streets, but 
also those that will appear at court.
    Senator Specter. Mr. Williams, starting with the issue of 
Safe Surrender, is that approach now in practice in 
Philadelphia, so that if a fugitive decides to surrender, the 
fugitive will be permitted to do so? What penalties, if any, 
will he face at that point, and how does it work?
    Mr. Williams. Well, currently, if a defendant fails to 
appear, he or she at any time can surrender him or herself in 
the criminal justice system center and a new date will be 
issued for their hearing. That's part of where the system 
breaks down, because the victim has showed up, the defendant 
failed to appear. The defendant could show up that day, months 
later, or years later.
    Senator Specter. Is there any penalty attached for somebody 
who comes forward in the Safe Surrender program?
    Mr. Williams. No, there is not. To answer your question, 
the Safe Surrender program, as I understand it, really took 
place last year over a 4-day period at a church in South 
Philadelphia. The clergy were involved, the Federal marshals 
were involved, our court system was involved.
    Senator Specter. How successful was it?
    Mr. Williams. It was very successful, and many individuals 
turned themselves in. But it was focused for the first time 
just on non-violent felons and on misdemeanants.
    Senator Specter. With someone who does not voluntarily come 
in but is apprehended, what is your view as to additional 
punishment for having jumped bail? Should there be a separate 
offense for jumping bail?
    Mr. Williams. The Pennsylvania Crimes Code does have, as 
you are well aware, a separate provision for punishment for the 
wilful failure to appear. The judge could also issue a contempt 
holding for that person, which would add another possible 5 
months' incarceration that could be consecutive or concurrent.
    Senator Specter. So the statute does allow for increasing 
the penalty which is prescribed by statute for an offense?
    Mr. Williams. That's correct.
    Senator Specter. So if someone is apprehended for larceny, 
you could add to the 5-year sentence provided.
    Mr. Williams. That is correct.
    Senator Specter. Would there be any utility in having a 
separate offense or indicting for a separate criminal charge?
    Mr. Williams. Well, part of the problem would be that it 
would just add more cases to the list, the preliminary hearing 
list, more paperwork, in some ways. I think while that's an 
option, and we utilize that in some cases, I think trying to 
find ways on the front end to reduce those that have the most 
potential to be fugitives, but also when a person fails to 
appear, to just proceed in their absence.
    I think what they hope is that they don't show up, that the 
victim showed up, that when they come back again the victim 
won't come because either the victim just doesn't care or just 
doesn't want to show up anymore because they're so frustrated 
with the system, and that the defendants defeat the system by 
frustrating the victims, by this gamesmanship.
    The Commonwealth has to say what our status is first, and 
often the defendants will leave rooms and there's this 
gamesmanship. I think if the defendant failed to appear, if we 
can proceed more often in their absence and the message got out 
that that was happening, Senator, I think that would defeat the 
purpose of so many of them trying to game the system.
    Senator Specter. Well, trial in absentia, which means trial 
in their absence, has been upheld by the appellate courts. As 
new process of law, if someone does not show up you could try 
them, even though he or she is not there.
    To what extent is trial by absentia employed now in the 
Court of Common Pleas?
    Mr. Williams. Senator, it is rarely employed because--one 
of the reasons is that all the defendant's constitutional 
rights cannot be waived in their absence currently, so we would 
have to do a jury trial if the defendant failed to appear 
previously. So, if we did all of the fugitive cases via jury 
trial, again, that would just bog down the system. So there are 
many theories on how we could proceed. We could, at an earlier 
point in the hearings, in a court of record, have, as part of 
the colloquy--after they've been held for court, at at some 
point a colloquy where they're told that if they fail to appear 
at a subsequent hearing, that they would waive their right to a 
jury trial by their wilful failure to appear. If they 
understood what their rights are--all the rights that we have--
this building is an edifice to glorify the Constitution, but 
all of the rights we have can be waived. So if they maybe had a 
waiver, a colloquy early on, that could expedite the need for 
having jury trials for all those fugitives subsequently.
    Senator Specter. It would be, probably, technical if you 
have a colloquy and you say, if you fail to show up, do you 
hereby waive your right to a jury trial? It's pretty difficult 
to get that if the person could decline. Well, I think it is a 
subject which ought to be explored.
    Mr. Williams. Yes.
    Senator Specter. Because the appellate courts have upheld 
it. There is a constitutional right to a jury trial, so we 
can't change it by legislation.
    Mr. Williams. Correct.
    Senator Specter. But we ought to explore ways of 
implementing trial by absentia, which would put people on 
notice that they can't game the system and have witnesses not 
show up because they failed to appear.
    Mr. Williams, let me turn to the subject of the first 
hearing to get your views as to the approach of having a 
Federal offense for intimidating a witness in a State criminal 
procedure. Your experience is extensive. To what extent do you 
believe that there would be more apprehension of someone to 
intimidate a witness if that person knew that the FBI was going 
to be on the case or going to be tried in the Federal court 
where the sentencing is on record as being tougher? How 
effective would a Federal statute be?
    Mr. Williams. Well, I believe that it would be helpful. I 
don't want to abdicate all of my own responsibilities as 
District Attorney to finding ways that we can ensure the safety 
of our victims, the protection of them, to ensure that more 
witnesses are willing to come forward. We have to do all that 
we can so that, when people in some ways intimidate our 
witnesses, that they are punished in State court. So, that's my 
responsibility. I'm going to do all that we can internally to 
see that we can do that job better.
    But I believe that a Federal law and the use of the U.S. 
Attorney's Office and FBI, and making examples of those that 
intimidate witnesses could in many ways change the culture. But 
again, it takes a holistic approach. We have to do all that we 
can to change the hearts and the minds of the young people that 
are doing this intimidation. We have to do all that we can to 
reach out to community members and potential victims, or future 
victims, to let them know that the police, the District 
Attorney's Office, will be there for them. I think that we have 
to do that every day.
    So I look forward to doing that, both on our end, but would 
look forward to the opportunity to work with Federal 
authorities to prosecute people that are intimidating and 
victimizing our victims over and over again.
    Senator Specter. Well, I like your attitude of not wanting 
somebody else to take over your responsibilities. You have the 
job.
    Mr. Williams. Uh-huh.
    Senator Specter. When I was District Attorney, I found I 
couldn't get sentences, that there were many burglars, repeat 
robbers who were getting insufficient sentences. When I got to 
the Senate, I introduced legislation which became the Armed 
Career Criminal bill, that anybody convicted of three or more 
offenses, like robbery, burglary, drug sales, found in 
possession of a firearm, would be tried in the Federal court 
and get a mandatory life sentence, which means 15 years to life 
in the Federal system.
    Now, looking for Federal help, that has been--I'm sure 
you're familiar with it--a very important piece of legislation. 
But it seemed to me as DA, wanting to carry out my job, when I 
found the courts were not cooperating, to bring the Federal 
Government into it, taking those career criminals into Federal 
court, was a big, big help. So, I would analogize that to 
getting assistance from the Federal Government where there are 
forces beyond the control of the local prosecutor. What do you 
think?
    Mr. Williams. Well, again, I'm hopeful that we'll have this 
opportunity.
    Senator Specter. How has the Armed Career Criminal bill 
worked, in your experience, in sending those cases to Federal 
court?
    Mr. Williams. Very well. The Federal Alternative State 
Trials program that exists currently is one that is very 
helpful. You know, but again, the defendants have to know about 
it, so in addition to the fact that we have a very good working 
relationship with the U.S. Attorney, just the ads that are on 
public transportation, when defendants see--or those public 
service announcements that are commercials--the funding that we 
can have to educate the public about the punishments of what 
will happen if you do commit a crime with a handgun, and how 
you could be prosecuted in Federal court.
    Again, we have to change the hearts and minds, and that 
comes from the general deterrence and the specific deterrence. 
So when people see the SEPTA ads on the back of a bus, that you 
can go to Federal prison, you won't be up on State row, you 
won't even be at Greaterford, you might be somewhere in 
Colorado or Illinois, that drastically, in many ways, changes 
the mind-sets of the people who are considering those offenses. 
When people hear about people who have been sentenced, the 
general deterrence, again, is very effective.
    Senator Specter. There have been some suggestions of 
seeking family sureties with the home property as collateral. 
Do you think that is worth exploring?
    Mr. Williams. I do. Again, I believe that we have to be 
open to all the different possibilities. Having private 
entities or public entities that go after that balance of the 
bail would be helpful. But specifically, if the family member 
has to put up the bail and the defendant knows that his mother, 
his grandmother, or some family member will be at a loss as a 
result of their failure to appear, they might take more 
personal responsibility to show up. Also, the family members 
might make them show up, and if they don't show up, they might 
be more apt to help the authorities to locate them so that 
grandma or the aunt doesn't lose her home or the $15,000 that 
she put up.
    Senator Specter. Do you think it's too tough to subject 
grandma to the possible loss of her home?
    Mr. Williams. It is difficult. I understand that. But I 
hope that that would be a way just to motivate the defendant to 
show up, and also, again, as a way so that you don't lose the 
value of that home, for them to surrender the defendant in a 
more timely manner. That would thwart, again, you know, the 
gamesmanship that we so often see on a daily basis at the 
Criminal Justice Center.
    Senator Specter. We've talked about, extensively, the 
fugitive problem, some comments about the intimidation of 
witnesses. I'm not sure where we're going to progress on these 
hearings. We may have more or we may not. But one of the 
subjects in the Inquirer series has been the issue of 
continuances. While you're here, I'd like your observations on 
how serious the problem is of continuances, where lawyers will 
not appear for putting ``busy'' slips and are in fact not busy.
    We talked, on the earlier hearing, on intimidation, about a 
special program we have for a lawyer who had a very large 
volume of cases and might have multiple listings on the same 
day that we put on the ``busy'' slip, but wasn't busy anywhere. 
We had a special courtroom established for that individual. It 
was challenged in the Federal court as a denial of his 
constitutional rights. I won that case. But how big a problem, 
from your experience in 10 years in the DA's office, is this 
issue of continuances to wear out the witnesses, so it's 
continued again, and again, and again and the witnesses don't 
show up?
    Mr. Williams. It's a serious problem, Senator. I was 
speaking with a judge and he mentioned that a defense attorney 
referred to the Criminal Justice Center here in Philadelphia as 
the Valhalla for defense attorneys. After having won the 
primary, I wanted to do all that I could to be the best 
District Attorney for the city of Philadelphia, so I began 
traveling to other jurisdictions to speak with other District 
Attorneys about their systems.
    I went far and wide. I went to Montgomery County, I went to 
Dauphin County, I met with the DA of Allegheny County, I went 
to Brooklyn, I went to San Francisco, and San Diego, just to 
name a few. Our system here--one of the reasons why we have so 
many failures to appear, is that there are so many listings for 
the defendant in the course of a criminal case. We can do a lot 
to reduce the number of times that the defendant has to appear. 
I think in many ways that would reduce the bench warrants that 
are issued. It would reduce the victimization of our victims, 
the revictimization, that they have to come to court over, and 
over, and over again.
    Senator Specter. Well, on the continuance issue, don't you 
have to have the cooperation of the judge to deny the 
application for continuance?
    Mr. Williams. We do.
    Senator Specter. So, frequently, the expression, the 
attorney-client relationship has not been consummated, taking 
that expression.
    Mr. Williams. Rule one.
    Senator Specter. Now it's, Mr. Green hasn't shown up.
    Mr. Williams. Right.
    Senator Specter. So what do you suggest be done on the 
continuance issue?
    Mr. Williams. Well, again, I believe that we can do a lot 
by holistically changing the level--the number of times cases 
have to be listed, by requiring--not requiring the----
    Senator Specter. I'm sorry. How do you do it if you limit 
the number of times it has to be listed?
    Mr. Williams. We can change the order. At a preliminary 
hearing, it's always, ``Is the Commonwealth ready? '' If the 
defense had to state what their status was first, that would 
change this. If the defense attorneys were not allowed to have 
a listing, a continuance at the first listing when they see 
that the Commonwealth is ready, just because rule one, or Mr. 
Green hasn't shown up, the defense attorney hasn't been paid, 
that wasn't allowed.
    Senator Specter. Well, that requires tougher action by the 
judge.
    Mr. Williams. That's correct. And that can't take Federal 
legislation, that takes the judiciary acting to police itself. 
I believe again, as a result of these reports, as a result of 
your interests, as a result also of all these entities having a 
fiscal crisis, that we are going to begin working together now 
to eliminate these potentials and the problems that you see, 
such as the multiple continuances.
    Senator Specter. Have you seen any evidence of a crack-down 
on the continuance problem so far?
    Mr. Williams. Well, I believe we have begun working with 
the judiciary, just as of last week, to begin a process to 
review the criminal courts and the process and protocols that 
we have in Philadelphia. I'm hopeful that that can be an 
impetus to find solutions, again, like these hearings.
    Senator Specter. How adequate are the sentences handed down 
by the common pleas judges?
    Mr. Williams. Well, again, we do have a sentencing 
guideline, a Sentencing Commission here in the Commonwealth of 
Pennsylvania that tries to make all of them uniform. For the 
most part, the judges do act and fall with their sentences 
within the sentencing guidelines. Some judges are more apt to 
find some aggravating circumstances and some more to look into 
the mitigated range, but I believe that for the most part the 
sentencing is not the issue when it comes to our fugitive 
problem. That is a separate and distinct issue.
    But I believe that for the most part, the public elects 
judges in Pennsylvania without knowing much about who they are 
and what their philosophies are. You can't even ask them 
questions about what they would do when they became judges. I 
know that's an issue for another hearing and another day. But, 
you know, again, it's not the severity of the punishment of 
what that sentence would be, it's the certainty. In 
Philadelphia, the defendants know that there is no certainty.
    Senator Specter. There was an effort made in the 
Constitutional Convention of 1969 to change the election of 
judges. What's your view on that subject, if you care to offer 
one?
    Mr. Williams. Well, I believe there are many different 
theories. I actually teach a course--used to teach a class--at 
Penn State where we talked about the merit selection process or 
a mixed process like the Missouri program, where the executive 
gets to have a board that's comprised of community members, 
members of the legal field, to come with people they believe 
are qualified and meet some sort of minimum standard to be a 
member of the judiciary. Then there's a public election based 
on those people that were deemed appropriate. I think a hybrid 
of appointment and direct election, I think, would be helpful 
in the Commonwealth of Pennsylvania.
    Senator Specter. In the Federal system, Senator Casey and I 
have a panel, going back to Senator Hines' and my time together 
years ago, a nominating panel. People who want to be Federal 
judges are screened. Senators then review it and make a 
recommendation to the President, which is really along the line 
of merit selection. What do you think of that for the State 
courts?
    Mr. Williams. Well, I think that has a lot of merit, but I 
do believe that the public having something more than ``they 
elected the executive that made the nomination,'' and the 
appointment has a little more of an egalitarian effect, a 
democratic effect, and people feel they're a part of it. So 
just the second step after the executive or the legislative 
branches have worked together to make this nomination to allow 
the public to basically give their imprimatur or their stamp of 
Good Housekeeping, as it were, I think is very democratic.
    Senator Specter. Well, Mr. Williams, thank you very much 
for coming in today. There are going to be lots of problems. I 
know Senator Casey and the Philadelphia Congressional 
delegation would join me in saying that we want to be helpful 
to you. You've got a big job and we want to help you carry it 
out.
    Mr. Williams. Thank you. I have big shoes to fill, yours, 
Governor Rendell, Ron Castile, Len Abraham. I look forward to, 
again, working with you and your staff to solve these problems 
and to make Philadelphia a safer city for all of us to live, 
work, and to raise our families.
    Senator Specter. You are the first District Attorney who 
didn't work in my office in modern times.
    [Laughter.]
    Senator Specter. You had Rendell following for 8 years, and 
you had Ron Castile elected twice, and you had Len Abraham 
reelected. So, you'll find the shoes fine. Thank you.
    Mr. Williams. Thank you very much.
    Senator Specter. Thank you.
    We will now turn to our panel. Mr. John Patrignani, Mr. 
David Preski, Mr. Roy Weise, and Mr. Dennis Bartlett, if you 
would come forward.
    We understand the DA has a lot of duties back at City Hall, 
so thank you for coming in.
    We are going to begin, before proceeding to the panel, with 
a statement from Mr. Marc Gaillard, from the Office of the 
Clerk of Quarter Sessions. Welcome, Mr. Gaillard. We look 
forward to your statement.

  STATEMENT OF MARC GAILLARD, OFFICE OF THE CLERK OF QUARTER 
              SESSIONS, PHILADELPHIA, PENNSYLVANIA

    Mr. Gaillard. Good morning, and thank you, Senator. Again, 
good morning, Senator Specter and distinguished members of the 
subcommittee. Thank you for giving me this opportunity to speak 
with you today on behalf of Hon. Vivian T. Miller.
    Senator Specter. Mr. Gaillard, pull the mic just a little 
closer.
    Mr. Gaillard. I am Marc Gaillard, deputy to the Clerk of 
Court of Sessions in Philadelphia County. We understand that we 
are here to speak with you about the way the bail process works 
in Philadelphia County, and particularly our involvement in it, 
so we will start by explaining the bail process in 
Philadelphia.
    In order to be released from confinement after being 
arrested, a defendant pays 10 percent of the bail, which is set 
by the bail commissioner at the arraignment. When the bail is 
posted, the money is placed into a Quarter Sessions account by 
an employee of the First Judicial District, who also generates 
a bail acceptance log. The accounts and logs are reconciled and 
maintained by the Clerk of Quarter Sessions. Of the 10 percent 
collected bail, 30 percent goes to the city. If the defendant 
complies with all subpoenas and the case is concluded, the 
surety can apply for the refund of the remaining 70 percent of 
the posted bail.
    If, over the course of a case, the defendant does not show 
up for any of his or her court appointments, the judge orders a 
bench warrant to be issued and the bail sued out, which means 
the defendant has 20 days to surrender and receive a new court 
date. If the defendant does not surrender within 20 days, a 
judgment for the full amount of the bail is issued against the 
surety. The surety now owes the city of Philadelphia the 
remaining 90 percent of the bail that was not collected 
earlier. There has been a lot of talk in the media that, dating 
back to 1968, the total amount of this forfeited bail owed the 
city is $1 billion. That is part of the reason why we're all 
here today.
    Before I address how the 90 percent gets collected, I would 
like to speak for a little bit about the $1 billion figure that 
has been accepted as the amount owed the city. Before we came 
here, we prepared a report to show the amount of bail forfeited 
from last year. In 2009, the amount of the forfeited 90 percent 
cash bail was $2.2 million. Over the past few years the crime 
and arrest rates have been relatively high, so one might 
surmise that the rate of forfeitures is equally high and 
remains relatively constant.
    To generate an estimate of the amount of forfeited bail 
owed the city, going back to 1968, let us double the number 
from last year and assume that the city is owed $5 million per 
year. This gives us an estimate of $205 million for the same 
time period, a far cry from the $1 billion that has been quoted 
so freely. We strongly caution against any reference to $1 
billion until such time as anyone can produce any backup 
documentation. No matter what the actual amount is, we can 
agree that there is a significant amount of money owed to the 
city and we need to understand how this happens.
    From a Quarter Sessions perspective, once a bench warrant 
is issued we have no additional responsibility until the 
defendant is rearrested or surrenders. If this does not occur 
within 20 days of the bench warrant, we mail a 20-day letter to 
the surety advising that if the defendant does not surrender 
within 20 days, the surety will be liable for the entire amount 
of the bail. After the 20 days, a default judgment is entered 
against the surety.
    Since Mrs. Miller's first term, it has never been our 
responsibility to collect forfeited bail. We simply send a 
percentage of the collected bail to the city's Revenue 
Department. Prior to the inception of the state-wide computer 
system installed in 2006, we did this upon receipt of a 
judgment letter from the First Judicial District. Now the court 
clerks in the courtroom issue the judgments directly into the 
computer system and the accounting clerks respond accordingly.
    But without getting into the blame game, as a member of the 
criminal justice system we are committed to being a part of the 
solution going forward. However, we realize that a significant 
percentage of the outstanding funds is uncollectible: some 
sureties are dead, imprisoned, or their whereabouts are 
completely unknown. Also, many are without the financial means 
to satisfy these debts. These facts notwithstanding, we want to 
see as much of this money collected as possible for the benefit 
of the city. We attempted to hire a collection firm previously, 
but the contract wasn't approved by the Law Department.
    Since then, we have been working with a collection firm 
retained by the First Judicial District, and we will continue 
to provide any information or assistance to aid them in their 
duties. Over the past year, there have been many allegations 
made about the Quarter Sessions, suggesting that we have been 
remiss in the execution of our duties within the Philadelphia 
criminal justice system. This is simply not the case. With 
limited resources and workloads that constantly increase as we 
continue to take on functions previously performed by other 
judicial partners, we remain committed to the City of 
Philadelphia.
    In these tough economic times, we are committed to working 
as efficiently as possible. We have conducted a thorough 
analysis of the processes executed by our accounting, our bail, 
and our cost and fines units to determine if there is room for 
improvement. The exercise has uncovered some areas for 
improvement. For example, we will be adjusting the way bail 
refunds are processed so that some 5 to 25 hours of effort will 
be saved on a daily basis. These hours can be redirected to 
other pressing needs within the office. A similar exercise 
analyzing our court clerks and our filing operations is 
currently under way.
    Senator, we want to be a part of the solution to the 
problems Philadelphia's criminal justice system is experiencing 
and not the scapegoat. We look forward to sitting at the table 
with our partners in the system to devise the right solutions.
    Again, Senator, we thank you for inviting us, for your 
invitation to this hearing, and your commitment to the people 
of Philadelphia. On behalf of Hon. Vivian T. Miller, we thank 
you.
    Senator Specter. Mr. Gaillard.
    Mr. Gaillard. Yes, sir?
    Senator Specter. Who should be responsible for collecting 
the bail if the Clerk of Quarter Sessions does not have that 
responsibility?
    Mr. Gaillard. Actually, I brought some other members of the 
staff that want to answer some specific questions. From our 
understanding, that seems to be a gray area. I mean, we've even 
spoken to staff that have been with the department for some 35 
years who can remember a point in time where that issue was 
never addressed. It's always been the Department's stance that 
we collected the 10 percent that was owed, made sure that got 
into the city's general fund, but the 90 percent, from my 
understanding, was always a gray area of responsibility.
    Senator Specter. Are you aware of the audit of the Office 
of Clerk of Quarter Sessions just released this week for the 
years 2007 and 2008?
    Mr. Gaillard. Yes.
    Senator Specter. Which found that there were not 
reconciliations, causing some $26.8 million to be omitted from 
the city's preliminary financial statement and did not report 
to the city $352.8 million receivable for fines, costs, and 
restitutions?
    Mr. Gaillard. Yes. In fact, we had given answers to the--to 
the department in regards to it. One of the suggestions is that 
we needed to actually increase our accounting department 
personnel. We've asked the city for money for it. It's been 
approved. We're in the process now of hiring an additional 
accountant. It's not reported in a timely enough basis, so 
we're trying to address that area.
    Senator Specter. So your point is, you've had insufficient 
funding to have the personnel to handle these problems?
    Mr. Gaillard. In the past, yes.
    Senator Specter. Uh-huh. Do you disagree with the audit 
that I just referred to?
    Mr. Gaillard. Actually, we have given written response. We 
do have several discrepancies in terms of what was reported to 
us, and even in terms of them not accurately looking at some of 
the records that were shown to the----
    Senator Specter. Well, I understand the problems that the 
Clerk of Quarter Sessions has, Ms. Vivian Miller. She's your 
superior, right?
    Mr. Gaillard. Yes, she is.
    Senator Specter. Uh-huh. And we want to explore further the 
operations and the problems that you have with respect to 
resources and to find out whose job it is to do precisely what. 
So we appreciate your coming in today and we will follow up 
with Ms. Miller. Tell her that I will give her a call 
personally and try to work out the procedures, to find out 
exactly what is going on to see if we can be helpful.
    Mr. Gaillard. OK. We appreciate that.
    Senator Specter. Thank you for coming in. Thank you.
    Mr. Gaillard. Thank you, sir. Senator Specter. Our first 
witness on our panel is Mr. John Patrignani, Acting U.S. 
Marshal. He comes to this job with very extensive service in 
the U.S. Marshal's Office since 1990, serving in a variety of 
positions and has intimate knowledge of the operation of the 
fugitive problem. Thank you very much for joining us, and we 
look forward to your testimony.

   STATEMENT OF JOHN PATRIGNANI, ACTING U.S. MARSHAL FOR THE 
  EASTERN DISTRICT OF PENNSYLVANIA, PHILADELPHIA, PENNSYLVANIA

    Mr. Patrignani. Thank you, and good morning, Chairman 
Specter and members of the subcommittee. My name is John 
Patrignani, Acting U.S. Marshal for the Eastern District of 
Pennsylvania. Thank you for the opportunity to appear before 
you today to discuss what the U.S. Marshal Service can do to 
assist in the apprehension of dangerous State and local 
fugitives.
    The Marshal Service has a long and rich history, with 
fugitive apprehension as one of its core missions. In 2006, 
Congress gave us the added responsibility of investigating sex 
offenders under the Adam Walsh Protection and Safety Act.
    The success of the Marshal Service's fugitive apprehension 
program is unmatched in Federal law enforcement. In fiscal year 
2009, the USMS arrested more than 127,000 felony fugitives, 
including more than 10,000 sexual offenders. Here in the 
Eastern District of Pennsylvania, the USMS and its State and 
local partners arrested over 1,500 fugitives, and we expect 
these statistics to increase this fiscal year.
    U.S. Marshals lead 82 fugitive task forces that support 
State and local efforts in apprehending violent fugitives. Our 
partnerships with Federal, State and local agencies through the 
task forces provide the wherewithal necessary to take the worst 
of the worst fugitives off the streets and help make our 
communities safer.
    The USMS provides our law enforcement partners with things 
that would not otherwise be available to them, such as overtime 
compensation, equipment, vehicles, technical assistance, and 
training. The force multiplier effect of the task forces lets 
criminals know that they can run, they can hide, but U.S. 
Marshals will track them down.
    In the Eastern District of Pennsylvania, the Violent Crimes 
Fugitives Task Force leads the hunt for fugitives. Led by the 
Marshal Service and comprised of four Federal and five State 
and local agency partners, the task force focuses on 
apprehending Federal, State, and local violent and felony 
fugitives. In fiscal year 2009, the task force arrested over 
1,500 fugitives, including 114 sex offenders, 5 gang members, 
and 93 persons wanted for homicide. Investigators also seized 
26 firearms, $26,000 in cash, and a quantity of narcotics.
    In June 2009, Operation FALCON, which is an acronym that 
stands for Federal and Local Cops Organized Nationally, was 
conducted in conjunction with our Federal, State and local 
partners. In the Eastern District, we arrested 333 fugitives 
during the course of the operation, including 4 persons wanted 
for homicide and 23 sexual offenders. In addition, 
investigators seized 5 firearms, $5,000 in cash, and a quantity 
of narcotics.
    Another tool in the fight against crime is the Fugitive 
Safe Surrender program. Authorized under the Adam Walsh Act, 
FSS does not provide amnesty, instead it encourages persons 
wanted for non-violent felony or misdemeanor crimes to 
voluntarily surrender in a faith-based or other neutral 
setting. Partnering with State and local law enforcement, the 
judiciary, and the religious community, the U.S. Marshal's 
Service has undertaken a total of 17 successful fugitive safe 
surrender operations. During the three operations conducted 
here in Pennsylvania, nearly 3,000 people self-surrendered, 
including over 1,200 in Philadelphia alone.
    The USMS also provides resources to State and local 
partners through the Department of Justice's Asset Forfeiture 
Program, which is managed by the Marshal's Service. Proceeds 
from the sale of forfeited assets are deposited into the asset 
forfeiture fund and shared with State and local law enforcement 
agencies based upon their involvement in law enforcement 
actions that led to the forfeiture of the assets.
    The USMS shared more than $7.5 million here in the Eastern 
District in fiscal year 2009. Additionally, the USMS has used 
asset forfeiture funds to purchase and equip nearly 600 
vehicles and pay overtime costs for State and local law 
enforcement partners across the country.
    The USMS is in a unique position with regard to the entry 
of warrants into the NCIC computer, since it serves as the 
national repository of all Federal arrest warrants that have 
been issued by U.S. District Courts and the U.S. Parole 
Commission. The Marshal Service also has apprehension authority 
for escaped Federal prisoners, bail-jumpers, parole violations, 
probation violators, non-compliant sexual offenders, and for 
fugitives wanted by other Federal law enforcement agencies. The 
USMS maintains nearly 30,000 wanted persons in NCIC, more 
records than any other Federal agency.
    Mr. Chairman, cooperation and coordination with our 
Federal, State and local law enforcement partners is of the 
utmost importance to the U.S. Marshal Service. Quite simply, 
they need us and we need them. Through the expansive network of 
the task forces in fugitive roundups such as Operation FALCON, 
the USMS has proved the efficacy of the cooperative law 
enforcement model which seeks to multiply the positive impact 
of law enforcement at all jurisdictional levels.
    Thank you for the opportunity to appear here before the 
subcommittee. I am happy to answer any questions you may have, 
sir.
    [The prepared statement of Mr. Patrignani appears as a 
submission for the record.]
    Senator Specter. Thank you. Thank you very much. We'll come 
to the questions later.
    We'll turn now to Mr. David Preski, Chief of the Pre-Trial 
Service Division of the First Judicial District of 
Pennsylvania.
    Thank you for joining us, Mr. Preski. We look forward to 
your testimony.

   STATEMENT OF DAVID PRESKI, CHIEF OF THE PRE-TRIAL SERVICE 
   DIVISION AT THE FIRST JUDICIAL DISTRICT OF PENNSYLVANIA, 
                   PHILADELPHIA, PENNSYLVANIA

    Mr. Preski. Thank you, Chairman Specter and members of the 
subcommittee. On behalf of the First Judicial District, I thank 
you for the invitation to answer any questions you may have.
    Senator Specter. The First Judicial District is 
Philadelphia.
    Mr. Preski. Yes, it is.
    My name is David Preski. I'm currently the Chief of the 
Pre-Trial Service Division of the First Judicial District of 
Pennsylvania. The First Judicial District of Pennsylvania, 
through its Pre-Trial Service Division, operates a full-service 
agency. The agency is responsible for many of the components, 
from arrest to adjudication, within the criminal justice 
process. The agency acts as the informational gatekeeper for 
all arrested and charged individuals and is responsible for the 
monitoring, supervision, and enforcement of released 
individuals and the arrest and apprehension of wanted 
individuals.
    The Warrant Unit is responsible for the enforcement of all 
criminal bench warrants and adult probation and parole warrants 
for the First Judicial District. Additionally, the unit is 
responsible for the enforcement of traffic court warrants and 
domestic relations warrants as they relate to child support and 
custody.
    The Warrant Unit is presently comprised of 52 armed field 
personnel and approximately 24 part-time administrative staff. 
The unit operates 24 hours a day, 7 days a week, including 
holidays, to complete fugitive investigations for the arrest of 
individuals wanted on bench warrants, probation and parole 
violations, traffic court, and domestic relations warrants.
    Administrative staff process correspondence from law 
enforcement agencies and departments throughout the 
Commonwealth in conjunction with the Commonwealth Law 
Enforcement Assistance Network, also called CLEAN, in order to 
confirm the validity of criminal warrants for individuals 
detained in other jurisdictions.
    Warrant Unit investigative personnel are then dispatched to 
accept custody of confirmed fugitives who are not being held on 
any other criminal charges and return them to the custody of 
Philadelphia. The Warrant Unit also has a major role in the 
First Judicial District House Arrest Program from the initial 
investigation, field installation, equipment maintenance, and 
the arrest of violators. This unit also maintains an office at 
the Criminal Justice Center to facilitate individuals who 
surrender peacefully on criminal bench warrants.
    During calendar year 2009, the unit was responsible for the 
arrest of 6,300 individuals wanted on 10,787 warrants. 
Additionally, through its surrender process, the unit processed 
17,381 cases, returning them to the active inventory. The 
Warrant Unit has established excellent working relationships 
with local, State, and Federal law enforcement partners, 
including, but not limited to, the Philadelphia Police 
Department, the U.S. Marshal Service, and the Federal Bureau of 
Investigation. The unit has participated in various sweeps, 
such as Operation FALCON, Operation Pressure Point, and 
Fugitive Safe Surrender.
    The ultimate mission of the Warrant Unit is to reduce the 
warrant inventory and to maintain the integrity of the judicial 
process. Given adequate resources and personnel, the unit will 
strive to reduce the current outstanding bench warrant catalog.
    Again, Senator Specter, I thank you for the invitation to 
this Committee.
    [The prepared statement of Mr. Preski appears as a 
submission for the record.]
    Senator Specter. Thank you very much, Mr. Preski.
    We now turn to our next witness, Mr. Roy Weise, Senior 
Advisor, Criminal Justice Information Services, Federal Bureau 
of Investigation.
    Thank you for coming here, Mr. Weise. The floor is yours.

  STATEMENT OF ROY G. WEISE, SENIOR ADVISOR, CRIMINAL JUSTICE 
    INFORMATION SERVICES, FEDERAL BUREAU OF INVESTIGATION, 
                   CLARKSBURG, WEST VIRGINIA

    Mr. Weise. Well, thank you, Senator. I'm Roy Weise, Senior 
Advisor in the FBI's Criminal Justice Information Services 
Division, or CJIS, located in Clarksburg, West Virginia. I 
thank you for this opportunity.
    The CJIS division maintains the National Crime Information 
Center, more commonly known as NCIC, which was established in 
1967. It's a computerized index of documented criminal justice 
information available to criminal justice agencies nationwide. 
The information maintained in NCIC assists authorized users in 
apprehending fugitives, locating missing persons, recovering 
stolen property, and identifying terrorists. NCIC operates 
under a shared management concept.
    The shared management is achieved through the Advisory 
Policy Board, chartered under the Federal Advisory Committee 
Act, and comprised of Federal, State, local, and tribal 
criminal justice professionals. The FBI serves as the 
custodians of the records housed at NCIC and maintains the 
operational availability of the system. The entry, modification 
and removal of records are the responsibility of the law 
enforcement agency that holds the arrest warrant, the missing 
person report, the theft report, et cetera.
    CJIS works very closely with tribal, local, State, and 
Federal law criminal justice agencies to develop the 
operational, policy, and procedural guidelines for using this 
system. Each State has a State level and a local agency 
representative who participates in the shared management 
process.
    Due in large part to the shared management, NCIC has 
thrived. Presently, NCIC contains 19 files with over 15 million 
records which are accessed an average of 7.5 million times each 
day. The system has experienced upgrades, modifications, and 
policy changes in order to adapt to new capabilities and 
changing requirements, as dictated by the user demands and 
legislation.
    Although there are no mandates requiring the entry of 
warrants into NCIC, law enforcement personnel rely greatly upon 
the use of the system. In 2007, the CJIS Advisory Policy Board 
convened a Warrant Task Force to address many outstanding 
warrant-related topics. The task force is comprised of a panel 
of subject matter experts who understand and place special 
emphasis on the importance of a wanted person file record entry 
by State and local law enforcement.
    Through initiatives by the local and State agencies and the 
efforts of the task force, the number of warrants has improved 
over the years. In 2002, there were entries for 800,000 
fugitives in NCIC; today there are 1.7 million. Having said 
that, the task force, the members of the shared management, and 
CJIS realize that there is room for more improvement.
    Senator Specter, I thank you for the opportunity to appear 
here on this issue. It is regarded very seriously by the FBI 
and the CJIS division. I look forward to any questions you may 
have.
    [The prepared statement of Mr. Weise appears as a 
submission for the record.]
    Senator Specter. Thank you very much, Mr. Weise.
    Our fourth and final witness on this panel is Mr. Dennis 
Bartlett, executive director of The American Bail Coalition.
    We appreciate your appearing here today, Mr. Bartlett. The 
floor is yours.

   STATEMENT OF DENNIS A. BARTLETT, EXECUTIVE DIRECTOR, THE 
           AMERICAN BAIL COALITION, FAIRFAX, VIRGINIA

    Mr. Bartlett. Mr. Chairman, thank you for the invitation to 
appear. I am Dennis Bartlett, the executive director of The 
American Bail Coalition, which is an association of 13 bail 
insurance companies. Our companies write most of the bail in 
the United States.
    Although the State of Pennsylvania permits the use of 
commercial surety bail for court appearance bonds, it also 
allows for local court rules. In 2006, Philadelphia allowed the 
use of commercial bail after a prohibition of over three 
decades. The new regulations, however, are so restrictive as to 
act as disincentives, hence, practically speaking, the use of 
commercial bail here is negligible.
    Nobody can estimate how the use of commercial bail might 
have attenuated Philadelphia's current bail crisis, but we do 
know this: (1) commercial bail gets its defendants to court, 
and if we don't we pay the forfeitures in cash. Nationwide, 
commercial bail has a solid track record in accomplishing the 
basic purpose of bail, that is, getting defendants to court. 
For every 100 defendants we bond out, we will have about 8 of 
them skip, and of that handful we will recover, on average, 5 
or 6, for an overall success rate of 97 to 98 percent. This 
success rate probably explains why, since 1990, State courts 
have doubled the use of commercial surety bonds.
    Lest I sound like Cicero, pro domo sua, this record has 
been confirmed by DOJ's Bureau of Justice Statistics, plus a 
number of academic studies, which are detailed in the written 
testimony. We're not Federal, but we might be part of the 
solution. If, in the opinion of the Federal Government, 
commercial bail is deemed a helpful ancillary to the criminal 
justice system, that is, getting clients to court, recovering 
fugitives, paying forfeitures for those who don't, how can the 
Federal Government enhance this role?
    One of the main obstacles to commercial bail is Federal 
funding granted to those who use these funds to try to 
eliminate commercial bail. The chief source of such funding is 
found in the Bureau of Justice Assistance and other agencies of 
DOJ's Office of Justice Programs. Recipients of government 
largesse, such as the National Association of Pre-Trial Service 
Agencies and the Pre--Trial Justice Institute, make no secret 
of their intention to eliminate commercial bail nationwide and 
replace it with government-run pre-trial service agencies.
    As far back as 1996, Congress chided OJB for such lopsided 
endorsements: ``Pre-trial release. The Committee is concerned 
that the Bureau of Justice Assistance has awarded grants to 
programs that encourage the use of unsecured release for 
individuals charged with serious and violent crimes. The 
Committee believes that balanced information should be provided 
to States and localities regarding all available pre-trial 
alternatives.'' Hence, if commercial bail has a positive effect 
on the U.S. criminal justice system, al fortiori, Federal 
funding, which goes to undercut it seems out of place.
    Furthermore, if pre-trial service agencies are recipients 
of Federal funding, it is not unreasonable for them to be 
accountable for their performance. According to a recent survey 
of 171 such agencies by the Pre-Trial Justice Institute, less 
than half of these agencies keep records, even of failures to 
appear. Furthermore, PJIA states that many of these agencies 
are disinclined to keep records out of fear that their poor 
performance will be used against them, especially in the budget 
process.
    Pre-trial service agencies should be subject to reporting 
requirements that record who is released on what charge, how 
many times that person has failed to appear, and the offense 
committed while on release pending trial, and if money bail is 
used, a record of the bond amount and how much was fortified, 
how much paid, and, more importantly, how much owed.
    There is a new development. It's a modest trend and it 
should be encouraged. Pre-trial service agencies recommend that 
their clients be released on commercial surety bonds. According 
to the PJI survey, pre-trial service agencies recommend about 
20 percent of the time that their clients be bailed out on a 
commercial surety bail bond. Agencies who have partnered with 
commercial bail on this have reduced their FTA rates 
drastically. Naturally, those who advocate the demise of 
commercial bail oppose this trend. The same cannot be said for 
us; we welcome such cooperation.
    Thanks again, Mr. Chairman.
    [The prepared statement of Mr. Bartlett appears as a 
submission for the record.]
    Senator Specter. Thank you. Thank you, Mr. Bartlett.
    Mr. Preski, we'll begin with you. According to a Bureau of 
Justice Statistics report from 2004, Philadelphia is tied with 
Newark, New Jersey as having the Nation's highest fugitive 
felony rate of 11 percent. According to the Inquirer story, the 
total number of fugitives in Philadelphia today is almost 
47,000, specifically, 46,839. Do those statistics sound about 
right to you?
    Mr. Preski. Yes, they do.
    Senator Specter. The factual situation also, as reported, 
is that Philadelphia is owed $1 million in bail monies, but 
they cannot be collected because of the absence of computerized 
records. Is that about right?
    Mr. Preski. Senator Specter, the Pre-Trial Service Division 
is responsible for the collection of the bail. We're not 
responsible, when bail is entered into judgment, for the 
collection piece. In other words, when an individual comes in 
to post the bail, our responsibility is to validate the amount 
of the bail that's holding the individual and to collect the 
requisite fee. Once that is done, then the bail process is 
turned over to the Clerk of Quarter Sessions. They are 
responsible for the collection.
    Senator Specter. It is the responsibility of the Clerk of 
Quarter Sessions to collect the bail?
    Mr. Preski. Yes, sir. After it is entered into judgment.
    Senator Specter. Are you aware of the audit of the Office 
of Clerk of Quarter Sessions which has just been released this 
week for 2 years, 2007 and 2008, which shows that there was a 
failure to have back reconciliations for $26,800,000 omitted 
from the city's preliminary financial statement and did not 
report to the city $352,800,000 in receivable funds for 
restitution?
    Mr. Preski. No, I am not.
    Senator Specter. Do you have any comment on that?
    Mr. Preski. The one thing I would like to point out, if the 
State-wide automation system, which Philadelphia is a part of, 
any bill that is collected by my agency, the requisite 
information on the individual is part of the record. So whether 
the bill goes in the name of the defendant or in the name of a 
third-party surety, all that information is part of the 
criminal process and the criminal record process, and that is 
turned over to the Clerk of Quarter Sessions. So they should 
have the information available to them of who posted the bail 
when money is entered into judgment.
    Senator Specter. Mr. Preski, the St. Louis Post-Dispatch, 
in a series of articles in 2008, reported that there are a vast 
number of fugitives who are not entered into the Federal 
system, into the National Crime Information Center. Do you have 
any idea how successful the Philadelphia system is for 
reporting fugitives into that system?
    Mr. Preski. As of right now, Philadelphia's warrants are 
not entered into NCIC, however, they will be, from what I 
understand, in May of 2010.
    Senator Specter. Why have they not been registered with the 
Federal system, the National Crime Information Center?
    Mr. Preski. I believe it was a logistical problem with 
computer people. But Senator Specter, I'm not totally aware of 
why.
    Senator Specter. Well, it's a pretty big omission, not to 
register the fugitives with the national system.
    Mr. Preski. Correct.
    Senator Specter. If the national system has a record of who 
the fugitives are from Philadelphia and they're apprehended 
someplace else, for example, St. Louis, then there's an 
opportunity for the St. Louis authorities to notify 
Philadelphia for Philadelphia to go and get the fugitive.
    Mr. Preski. You're absolutely correct. That would put a 
greater burden on the District Attorney's Office, who is 
responsible for the extradition of that individual.
    Senator Specter. Well, that's the burden of the District 
Attorney, to prosecute people charged with crime, and you have 
to bring them in. Isn't the practical effect of not reporting 
to the national clearinghouse fugitives really knowing the 
system, gaming the system, remaining at large and really 
thumbing their nose at the Philadelphia criminal justice 
system?
    Mr. Preski. Senator Specter, the individuals will be 
entered into the national computer system in May of 2010. Now, 
I was not part of the committee or the reason why they were, or 
took so long for them to be entered into it.
    Senator Specter. Who was on the committee? Who is 
responsible?
    Mr. Preski. I'm not aware of that, Senator.
    Senator Specter. Well, who's on the committee?
    Mr. Preski. I believe it was the Philadelphia State Police, 
it was members of the First Judicial District Management 
Information Services, and court administration.
    Senator Specter. This is January. Why should it take until 
May to start entering these fugitives in the national system?
    Mr. Preski. I believe it was just logistical problems, from 
what I understand.
    Senator Specter. What do you mean by ``logistical 
problems'' ?
    Mr. Preski. How the warrants were going to be entered in, 
what information was going to be entered in, et cetera. But 
again, I was not part of that, so it's very difficult for me to 
answer that.
    Senator Specter. Well, who's responsible for it now? Whom 
can I call up and say, why the delay?
    Mr. Preski. I would contact the court administration for 
the First Judicial District of Pennsylvania, Mr. Lawrence.
    Senator Specter. And he has the answers?
    Mr. Preski. I would hope so, sir.
    Senator Specter. Mr. Patrignani, you are the Acting U.S. 
Marshal. How does the Federal Government work on a similar 
system? If you have a fugitive who doesn't show up for a 
Federal trial, is that person entered into the National Crime 
Information Center?
    Mr. Patrignani. Yes, they are.
    Senator Specter. And if they are apprehended somewhere on 
another charge in some other city, is that information brought 
to the attention of the U.S. Marshal so that you can facilitate 
their being brought back to your court for trial?
    Mr. Patrignani. Yes, it is.
    Senator Specter. And how does that work?
    Mr. Patrignani. Well, generally the arresting jurisdiction, 
if it's outside of the Philadelphia area, will run that person. 
If they identifiers that that person provides to that arresting 
jurisdiction are the same that are entered into NCIC, then 
they'll get what's called a ``wanted hit,'' which will be a 
computer-generated message letting them know that that 
individual is wanted in another jurisdiction for----
    Senator Specter. And then what do you do, go get them?
    Mr. Patrignani. That's correct.
    Senator Specter. What happens to the person who has skipped 
bail? Is there an additional penalty, an additional charge? 
What is the consequence of that?
    Mr. Patrignani. There can be, and generally that's left up 
to the judge who presides over that particular case.
    Senator Specter. And what have you seen is the practice? 
Does the judge increase the severity of the sentence?
    Mr. Patrignani. I think it varies, Mr. Chairman. Some 
judges have made it more of a practice to add additional 
penalties for failure to appear and violations of----
    Senator Specter. Is there a separate offense for jumping 
bail?
    Mr. Patrignani. Yes, there is.
    Senator Specter. So there can be an additional sentence on 
an additional offense?
    Mr. Patrignani. That's correct.
    Senator Specter. Mr. Weise, what recommendations would you 
have for the kinds of problems which we're facing here in 
Philadelphia? You're a senior advisor for the Criminal Justice 
Information System at the Federal Bureau of Investigation. How 
effective is the system employed in the Federal criminal courts 
contrasted with what we've heard about the Philadelphia 
criminal courts?
    Mr. Weise. I really feel I'm not qualified to answer that 
question. I couldn't compare the two, Senator.
    Senator Specter. Well, how does the Federal system work? 
You've heard the description from Mr. Patrignani. How would you 
supplement that?
    Mr. Weise. The NCIC, we feel, is a very effective weapon. 
We now have 1.7 million warrants in the system. A recent survey 
showed that--not recent. It was actually a few years ago. But 
it showed that we apprehend a fugitive every 90 seconds using 
the system.
    Senator Specter. The St. Louis Post-Dispatch cited Federal 
estimates of 1.9 to 2.7 million active Federal, State, or local 
felony warrants, but only 1.1 million of those warrants having 
been entered in the National Crime Information Center. Does 
that sound about right to you?
    Mr. Weise. Yes, sir. That article was written some time 
ago, so the 1.1 million is now 1.7 million. So, we have 
improved since then.
    Senator Specter. So this is a national problem. Those 
figures cited not only Federal, but State and local as well, 
correct?
    Mr. Weise. Yes, sir. That's total.
    Senator Specter. And do you have any idea why it is that so 
many fugitive warrants are not entered into the national 
system?
    Mr. Weise. I think some of it is the overhead involved in 
putting them in, administrative overhead. There's a requirement 
that you validate each record every year to make sure that it's 
still supposed to be in the system, which takes resources. I 
think sometimes it's a matter of education, and that's been one 
of our efforts, is we've used that St. Louis Post-Dispatch 
article to--we sent that to every chief of police and every 
sheriff in the country to let them know about this issue, 
feeling that once they're aware of it they'll take care of it 
in their jurisdiction as well.
    Senator Specter. So with that tremendous number of 
additional people who have jumped bail around the country, 
State and local, it seems the Federal Government has it pretty 
well in control, as described here today. There are a lot of 
people who are charged with crimes who are at large. Any 
statistics or studies available on the crime problem caused by 
those people who are at large?
    Mr. Weise. Not that I'm familiar with. The Post-Dispatch 
article did have some good anecdotal information about the 
crimes that are committed----
    Senator Specter. And what was that anecdotal information?
    Mr. Weise. Just, individuals that committed a crime because 
they were not in the system, or perhaps they were in the system 
but when they were arrested and extradition was not 
accomplished.
    Senator Specter. So there are specific cases where people 
who have jumped bail, who are at large, have committed other 
crimes of violence?
    Mr. Weise. Yes, sir.
    Senator Specter. And with so many at large, it's a pretty 
sensible inference that many more are committing crimes of 
violence.
    Mr. Weise. Yes, sir.
    Senator Specter. So it's a breakdown nationally, not just 
Philadelphia. We've got a lot of company.
    Mr. Weise. Yes. It's not unique to Philadelphia.
    Senator Specter. Huh?
    Mr. Weise. It's not unique to Philadelphia.
    Senator Specter. Not unique to Philadelphia.
    You talk about commercial bail, and your testimony is that 
commercial bail has been a lot more successful in producing 
people who jump bail.
    Mr. Bartlett. Yes, sir, I think we are. If you've got a 97 
to 98 percent success rate, I think that's pretty good.
    Senator Specter. How good are your statistics? They sound a 
little too good to be true, Mr. Bartlett.
    Mr. Bartlett. They're industry statistics. It will vary 
from place to place, but that seems to be the general, that 8 
percent initial skip rate, and then the picking up of 4 or 5. 
Also, that is confirmed by the Bureau of Justice statistics 
study.
    Senator Specter. Would you recommend to a city like 
Philadelphia that they go back to commercial bail?
    Mr. Bartlett. Yes. I think the courts should have that 
option, and I think for certain defendants it would be a good 
option. I think the city ought to facilitate that. Right now, 
they have, like I said, since 2006, authorized the 
reintroduction of commercial bail, but you have to put down a 
$250 deposit and you cannot write more than $1 million face 
value.
    Senator Specter. A $250 deposit?
    Mr. Bartlett. Two hundred and fifty thousand. Excuse me.
    Senator Specter. Two hundred and fifty thousand.
    Mr. Bartlett. Correct.
    Senator Specter. Who puts the deposit down, the commercial 
bail company?
    Mr. Bartlett. Yes. The person who's admitted, the company's 
that's admitted to write bail has to put down that deposit. 
Now, in the case of an insurance company, that's ridiculous 
because insurance is, in effect, a deposit. I don't think any 
property and casualty writer in the city has to put down such a 
deposit.
    But the cap of $1 million only allows, say, a 10 percent 
profit, so you're basically putting down a quarter of a million 
dollars to make a $100,000 profit, if that. That's shared with 
bail agents and insurance companies and so forth, so as 
somebody said, the squeeze is not worth the juice.
    Senator Specter. Mr. Bartlett, do you know the history of 
Philadelphia moving away from commercial bail to----
    Mr. Bartlett. Yes. I've heard it was the result of, as it 
was in many places 35 years ago or so, corruption in the bail 
industry. Nowadays, it's highly regulated. A corrupt bail agent 
today is soon a former bail agent. Abuses in the system--it's 
very highly self-policed. Very few bail agents will tolerate a 
colleague who is getting a commercial edge based on spurious 
practices. I'd say that almost any case that you could bring up 
to me, I could probably tell you that behind the prosecution of 
such abuses are probably other bail agents who are coming forth 
to the authorities regarding those abuses.
    Senator Specter. When I was District Attorney, there was a 
lot of corruption in the bail system, implicated with a 
magisterial system where there were shake-downs and people who 
were under arrest. We used to have a theater across from City 
Hall called The Family Theater, and there were a lot of sting 
operations. They would arrest people on charges involving gays, 
take them into the police district. Suddenly, someone would 
appear and get them released on bail and extorted large sums of 
money. The bail system went by the boards. But it may be time 
to take another look at it.
    Mr. Bartlett. Well, I think under the current situation--
you know, that's 35 years ago. I think the situation has 
changed drastically in that respect.
    Senator Specter. I'd like you to submit to the subcommittee 
those statistics, and the backing of those statistics----
    Mr. Bartlett. Sure.
    Senator Specter [contuning]. To show the success rate in 
the high 90s. That sounds like a----
    Mr. Bartlett. They are put forth in the studies which I 
referred to in my written testimony. I'll be happy to get that 
material to your staff.
    Senator Specter. We have had a number of efforts to bring 
the Federal Government into the bail picture. Legislation was 
introduced by Senator Biden--held hearings in 2008--to provide 
for Federal grants authorizing the Attorney General to make 
Federal grants to assist in the funding of locating and 
apprehending fugitives and bringing them back. Senator Durbin 
and Senator Elizabeth Dole had similar legislation. Senator 
Durbin's staff and my staff have been talking about 
revitalizing that.
    What do you think of that, Mr. Preski? This is an obvious 
question, but the city of Philadelphia could use some 
assistance on funding the identification of these fugitives and 
apprehending them and bringing them back.
    Mr. Preski. Senator, we would welcome any additional funds 
that would assist in that endeavor. I mean, at the present 
time, if you look at the Warrant Unit, in and of itself, we're 
down 21 personnel due to budgetary constraints that the First 
Judicial District is under.
    Senator Specter. You have only 52 people in the Warrant 
Unit?
    Mr. Preski. I have 52 armed field personnel.
    Senator Specter. How many do you need?
    Mr. Preski. I would welcome any additional personnel.
    Senator Specter. No, I know you'd welcome them, but how 
many do you need?
    Mr. Preski. Presently we're down 21 individuals. I would 
like to replenish and get back to where I was, at least.
    Senator Specter. If you had 21 more, up to 73, would that 
be adequate?
    Mr. Preski. It would allow us to do our job even better 
than how we do it now. I mean, if you look at these 6,300 
arrests for calendar year 2009, we would be able to increase 
that.
    Senator Specter. When was the decision made to start 
putting Philadelphia fugitives into the national system next 
May? When was that decision made?
    Mr. Preski. I was not part of that decision.
    Senator Specter. Who made the decision?
    Mr. Preski. Again, I have to defer to my hierarchy on that. 
I know that there were numerous meetings with the State Police, 
with the Philadelphia Police, and in order to complete----
    Senator Specter. Those were inspired by the Philadelphia 
Inquirer articles?
    Mr. Preski. No, it was before that, actually. This has been 
an ongoing discussion.
    Senator Specter. Well, how long have the discussions taken?
    Mr. Preski. Senator, again, I'm not part of that. I can't 
answer that.
    Senator Specter. Okay. Well, we can find that out. We can 
find that out.
    Mr. Preski. I can tell you this, that the Philadelphia 
warrants have been entered into the Commonwealth Law 
Enforcement Assistance Network, the CLEAN network, since 2004, 
so anyone that is stopped within the Commonwealth of 
Pennsylvania, the Philadelphia warrant will be visible to them.
    Senator Specter. Since 2004?
    Mr. Preski. 2004, sir.
    Senator Specter. How effective has that been?
    Mr. Preski. It's highly effective. Highly effective.
    Senator Specter. So you knew that if you had these warrants 
entered into a statistical computer and you located people, but 
inside of Pennsylvania is very limited. These fugitives travel 
far and wide, don't they, Mr. Preski?
    Mr. Preski. Yes, they do, Senator.
    Senator Specter. Uh-huh.
    Mr. Patrignani, would you have any suggestion for how the 
Philadelphia system ought to be restructured to be as effective 
as the Federal system?
    Mr. Patrignani. Well, I would defer to the local officials 
on that matter, Mr. Chairman, just because they're much more 
qualified to be able to answer their intimate questions.
    Senator Specter. Well, we will pursue it, Mr. Preski, as 
you say, with the individuals who are charged to try to find 
out where the laxity has been and why it's going to take so 
long, until May. That's a long time between now and May. That's 
five months--four, five months.
    And Mr. Bartlett, we'd appreciate your giving us those 
statistics and the way commercial bail works. That's something 
that ought to be considered here.
    Senator Specter. Well, we thank you all very much for 
coming in, and that concludes our hearing. Thank you.
    [Whereupon, at 11:02 a.m. the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                 <all>

</pre></body></html>
